                                           DEPARTMENT OF THE TREASURY
                                               W ASHINGTON, D.C. 20220


                                                  June 10, 2013
     OFFICE OF
INSPECTOR GENERAL



            OIG-13-CA-008

            Walter W. Harsch, C.P.M.
            2474 E Hilbar Lane
            Green Valley, Arizona 85614

            Dear Mr. Harsch:

            On behalf of Inspector General Thorson, I am responding to your letter dated
            January 18, 2013, regarding two concerns you expressed with the Effective
            Annual Discount Rate (EADR) formula below that is included in the Treasury
            Financial Manual, Volume1, Part 6, Chapter 8000 Cash Management, Section
            8040.40 – Cash Discounts (TFM).

            Discount             Annual
            Percent       x    Calendar                      =   Effective Annual Discount Rate (EADR)
                              Days (360)

            100 Percent       Number of (-)    Number of
            Minus               Days in        Days Left
            Discount           Payment         in Discount
            Percent              Period        Period


            (Factor 1)        (Factor 2)

            Your first concern was with the denominator in Factor 2 of the EADR formula,
            which is the difference between two components – Number of Days in Payment
            Period and Number of Days Left in Discount Period. In your letter, you proposed
            that the dominator should be the difference between the Number of Days in
            Payment Period and the number of elapsed days between the date of the invoice
            and the date of its receipt by the government.

            Consistent with 5 CFR Part 1315 Prompt Payment, the payment period in the
            EADR formula generally begins with the date of receipt of an invoice. The Number
            of Days Left in Discount Period of the EADR formula represents the government’s
            available discount period, that is, the number of days of the payment period that
            the government has the ability to take advantage of the discount once it receives
            an invoice. In this regard, the discount period in the EADR formula begins with the
            date of an invoice. However, since the payment period for the EADR formula
            begins with the date of receipt of the invoice, the discount period is reduced for
            the days elapsed since the date of the invoice to the beginning of the payment
            period to determine the discount period available to the government.
Page 2

We discussed your concerns with Bureau of the Fiscal Service staff, the
Department of the Treasury organization responsible for the TFM, and they believe
that the EADR formula in the TFM is correct. In addition, as part of our research,
we consulted with the Chair of the Department of Accounting and Information
Assurance of the Robert H. Smith School of Business at the University of
Maryland, who also believes that the EADR formula is correct. Based on our
analysis and discussions, we conclude that the EADR formula is correct as
presented in the TFM.

Your second concern involved the use of 360 annual calendar days instead of 365
days to compute the EADR. The use of 360 annual calendar days is consistent
with accepted commercial practice to simplify interest computations. It is also
consistent with the annual days used to calculate interest in federal regulations,
such as 5 CFR Part 1315 Prompt Payment. Accordingly, we conclude that the use
of 360 annual calendar days in the EADR formula is appropriate and reasonable.

In closing, we do want to thank you for bringing this matter to our attention. I hope
this information above is helpful.

Sincerely,



/s/
Marla A. Freedman
Assistant Inspector General for Audit
